->
•s

No. 20-1247

In The

Supreme Court of tfje fHntteb States
Gerald Dix,
Petitioner,
v.

Edelman Financial Services, LLC, et al.,
Respondents.
CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5, I certify that the Petition for
Rehearing was served via electronic mail and the United States Postal Service on all
parties required.
I declare under penalty of perjury that the foregoing is true and correct.
SUBSCRIBED AND SWORN TO BEFORE ME this 7th day of June 2021.

Gerald Dix
State of Illinois, County of Cook, ss. I, the undersigned, a Notary Public in and for the
said County, in the State aforesaid, DO HEREBY CERTIFY that Gerald Dix
personally known to me to be the same person whose name is subscribed to the
foregoing instrument, appeared before me this day in person, and acknowledged that
he signed the said instrument as his free and voluntary act as Witness for the uses
and purposes therein set forth
Given under my hand and official seal, this

day of June,2021.

Commission expires: o/'in-'
Notary Public

Official Seal
Daniel Durting
Notary Public State of Illinois
My Commission Expires 06/22/2022

List of Parties served:
liana H. Eisenstein
Ben C. Fabens-Lassen
DLA PIPER LLP (US)
1650 Market St., Ste. 5000
Philadelphia, PA 19103

Daniel S. Harawa
Washington University School of Law
One Brookings Drive, Box 1120
St. Louis, MO 63130
dharawa@wustl.edu

ilana.eisenstein@dlapiper.com
ben.fabens-lassen@dlapiper.com
Thomas F. Asch
Law Offices of Thomas F. Asch
7516N. Eastlake
Chicago, IL 60626

Lori A. Vanderlaan
Allie M. Burnet
Best, Vanderlaan & Harrington
25 E. Washington St., Ste. 800
Chicago, Illinois 60602

thomasasch@earthlink.net
lvanderlaan@bestfirm.com
abumet@bestfirm.com

James H. Knippen, II
WALSH, KNIPPEN & CETINA
2150 Manchester Road, Ste. 200
Wheaton, IL 60187-2476
j im@wkc-lawyers. com
Kevin M. O’Hagan
Paige Canepari
O’HAGAN MEYER LLC
One East Wacker Drive Ste. 3400
Chicago Illinois 60601
kohagan@ohaganmeyer.com
pcanepari@ohaganmeyer.com

2

